DAREN L. SHIPPY- RESPONDENTS)
PROOF OF SERVICE
I, Percy Allen Stucks Jr., do swear or declare that on this date, August 3,
2021, as required by Supreme Court Rule 29 I have served the enclosed MOTION
FOR LEAVE TO PROCEED IN FORMA PAUPERIS and PETITIONER FOR
STATUS ON STAY on eqch party to the above proceeding or that party’s counsel, on
every other person required to be served, by depositing an envelope containing the
,.

\

above documents in the United States mail properly addressed to each of them and
with first-class postage prepaid, or by delivery to a third-party commercial carrier
for delivery within 3 calendar days.
The names and address of those served are as follows:
1. Assistant Attorney General Daren L. Shippy
PL-10, The Capitol
Tallahassee, Florida 32399-1050
2. Supreme Court of the United States
Office of the Clerk
Washington, D.C. 20543-0001
I declare under penalty of perjury that the forgoing is true and correct.
Executed on August 03, 2021

i

(Signature)

«!

*

